      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General


                                                                         Washington, D.C. 20201




May 24, 2011

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services

               /Diann M. Saltman/ for
FROM:          George M. Reeb
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Review of Medicaid Hysterectomy Expenditures Claimed as Family Planning in
               Oklahoma for Calendar Years 2005 to 2009 (A-06-10-00047)


Attached, for your information, is an advance copy of our final report on Medicaid hysterectomy
expenditures claimed as family planning in Oklahoma for calendar years 2005 to 2009. We will
issue this report to the Oklahoma Health Care Authority within 5 business days.

If you have any questions or comments about this report, please do not hesitate to contact me at
(410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov, or your staff may contact
Patricia Wheeler, Regional Inspector General for Audit Services, Region VI, at (214) 767-8414
or through email at Patricia.Wheeler@oig.hhs.gov. Please refer to report number
A-06-10-00047.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VI
                                                                          1100 Commerce Street, Room 632
                                                                          Dallas, TX 75242
May 25, 2011

Report Number: A-06-10-00047

Ms. Carrie Evans
Chief Financial Officer
Oklahoma Health Care Authority
2401 NW 23rd Street, Suite A1
Oklahoma City, OK 73107

Dear Ms. Evans:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Hysterectomy Expenditures Claimed as
Family Planning in Oklahoma for Calendar Years 2005 to 2009. We will forward a copy of this
report to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(214) 767-8414, or contact Warren Lundy, Audit Manager, at (405) 605-6183 or through email
at Warren.Lundy@oig.hhs.gov. Please refer to report number A-06-10-00047 in all
correspondence.

                                             Sincerely,



                                             /Patricia Wheeler/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Carrie Evans


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




     REVIEW OF MEDICAID
HYSTERECTOMY EXPENDITURES
CLAIMED AS FAMILY PLANNING
 IN OKLAHOMA FOR CALENDAR
     YEARS 2005 TO 2009




                      Daniel R. Levinson
                       Inspector General

                          May 2011
                        A-06-10-00047
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly administer and fund the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved plan. Although the States
have considerable flexibility in designing and operating their Medicaid programs, they must
comply with applicable Federal requirements. In Oklahoma, the Oklahoma Health Care
Authority (State agency) is responsible for administering the Medicaid program.

The State agency claims Medicaid expenditures and the associated Federal share of those
expenditures on the Form CMS-64, Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program (CMS-64 report). It reports Medicaid funds used to pay for
medical and administrative expenditures for the quarter being reported and any prior-period
adjustments.

Pursuant to section 1905(b) of the Social Security Act, the Federal Government pays its share of
a State’s medical assistance expenditures under Medicaid based on the Federal medical
assistance percentage (FMAP), which varies depending on the State’s relative per capita income.
The FMAP for family planning expenditures is 90 percent, which is higher than the regular
FMAP. The Federal Government pays its share of hysterectomy expenditures at the regular
FMAP.

OBJECTIVE

Our objective was to determine whether the State agency claimed Federal reimbursement for
hysterectomy expenditures at the enhanced family planning FMAP of 90 percent for the period
January 1, 2005, through December 31, 2009.

SUMMARY OF FINDING

Of the $18,156,409 in hysterectomy expenditures the State agency claimed from January 1,
2005, through December 31, 2009, it improperly claimed $17,394,988 at the enhanced family
planning FMAP of 90 percent. The remaining $761,421 was claimed at the regular FMAP. The
expenditures were improperly claimed because the State agency programmed its computer
system to aggregate the amount paid for services with hysterectomy billing codes on a CMS-64
report line that the State agency generally used to claim family planning expenditures. As a
result, the State agency inappropriately received an additional $3,356,074 (Federal share).




                                                i
RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government the $3,356,074 in overpayments the State agency
       received for hysterectomy expenditures claimed at the enhanced family planning FMAP,

   •   refund to the Federal Government any overpayments the State agency may have received
       for hysterectomy expenditures claimed at the enhanced family planning FMAP in
       quarters after our audit period, and

   •   discontinue claiming hysterectomy expenditures at the enhanced family planning FMAP.

STATE AGENCY COMMENTS

The State agency agreed with our finding and stated that it had removed all hysterectomy billing
codes from the list of family planning codes in its computer system. The State agency’s
comments appear in their entirety as the Appendix.




                                               ii
                                                    TABLE OF CONTENTS

                                                                                                                                           Page

INTRODUCTION..........................................................................................................................1

   BACKGROUND ..........................................................................................................................1
    Medicaid Program ....................................................................................................................1
    Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program .............1
    Federal Requirements ...............................................................................................................1
    Hysterectomy Procedures .........................................................................................................2

   OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................................2
    Objective...................................................................................................................................2
    Scope ........................................................................................................................................2
    Methodology.............................................................................................................................2

FINDING AND RECOMMENDATIONS ...................................................................................3

      IMPROPERLY CLAIMED HYSTERECTOMY EXPENDITURES .....................................3

      RECOMMENDATIONS..........................................................................................................4

      STATE AGENCY COMMENTS ...........................................................................................4

APPENDIX

      STATE AGENCY COMMENTS




                                                                       iii
                                           INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly administer and fund the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved plan. Although the States
have considerable flexibility in designing and operating their Medicaid programs, they must
comply with applicable Federal requirements. In Oklahoma, the Oklahoma Health Care
Authority (State agency) is responsible for administering the Medicaid program.

Pursuant to section 1905(b) of the Social Security Act, the Federal Government pays its share of
a State’s medical assistance expenditures under Medicaid based on the Federal medical
assistance percentage (FMAP), which varies depending on the State’s relative per capita income.
For calendar years 2005 through 2009, the State agency’s regular FMAP ranged from
67.10 percent to 75.83 percent.

The Federal Government’s share of some medical assistance expenditures is higher than the
regular FMAP. For example, the Federal share of family planning expenditures is 90 percent,
and the Federal share of Indian Health Service (IHS) expenditures is 100 percent.

Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program

The State agency claims Medicaid expenditures and the associated Federal share on the
Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical Assistance
Program (CMS-64 report). This form reports Medicaid funds used to pay for medical and
administrative expenditures for the quarter being reported and any prior-period adjustments. The
CMS State Medicaid Manual, section 2500(A)(1), states that the amounts reported on the
CMS-64 report and its attachments must represent actual expenditures. In addition, all
supporting documentation must be in readily reviewable form and available at the time the claim
is filed.

This audit resulted from a separate review 1 we did of Oklahoma’s CMS-64 report for the quarter
ended December 31, 2008. We addressed the State agency’s overall claim for Federal
reimbursement in that report.

Federal Requirements

Regulations (42 CFR § 441.255) make Federal share at the regular FMAP available for
hysterectomy procedures that are not performed solely for sterilization purposes and list

1
 Review of the Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program in Oklahoma
(A-06-09-00097).

                                                      1
additional requirements for Federal reimbursement. The CMS State Medicaid Manual,
section 4270(B)(2), states that the enhanced family planning FMAP of 90 percent is not available
for the cost of a hysterectomy.

Hysterectomy Procedures

A hysterectomy is the surgical removal of the uterus. Because removal of the uterus makes the
patient unable to bear children and significantly changes hormonal levels, the surgery is
recommended only under certain circumstances (e.g., cancer or fibroids). In 2005, the State
agency began claiming hysterectomy expenditures on the sterilization line on the CMS-64 report.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Federal reimbursement for
hysterectomy expenditures at the enhanced family planning FMAP of 90 percent for the period
January 1, 2005, through December 31, 2009.

Scope

From January 1, 2005, through December 31, 2009, the State agency claimed $18,156,409 in
hysterectomy expenditures. 2

Our objective did not require a review of the overall internal control structure of the State
agency. Therefore, we limited our internal control review to the State agency’s procedures for
aggregating hysterectomy expenditures on the CMS-64 report.

We conducted fieldwork at the State agency’s offices in Oklahoma City, Oklahoma, from
February to December 2010.

Methodology

To accomplish our objective, we:

     •   reviewed applicable laws, regulations, and guidance;

     •   interviewed State agency officials;

     •   gained an understanding of the process used by the State agency for claiming
         hysterectomy expenditures on the CMS-64 report;

     •   identified inpatient and outpatient billing codes for hysterectomies;

2
  The reviewed amount does not include costs of claims submitted by IHS facilities because they were eligible for
reimbursement at the enhanced FMAP of 100 percent.

                                                         2
    •   traced expenditures claimed on the CMS-64 report sterilization line to supporting claim-
        level data;

    •   analyzed the claim-level data to:

           o identify and remove claims submitted by IHS facilities,

           o identify claims with hysterectomy billing codes, and

           o determine what FMAP the State agency used to calculate the Federal share for
             claims with hysterectomy billing codes;

    •   calculated Federal overpayments related to hysterectomies that the State agency claimed
        at the enhanced family planning FMAP of 90 percent (i.e., calculated overpayments as
        the difference between the enhanced family planning FMAP and the regular FMAP); and

    •   discussed our results with the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATIONS

IMPROPERLY CLAIMED HYSTERECTOMY EXPENDITURES

The CMS State Medicaid Manual, section 4270(B)(2), states that the enhanced family planning
FMAP of 90 percent is not available for the cost of a hysterectomy.

Of the $18,156,409 in hysterectomy expenditures the State agency claimed for the period
January 1, 2005, through December 31, 2009, it improperly claimed $17,394,988 at the enhanced
family planning FMAP of 90 percent. The remaining $761,421 was claimed at the regular
FMAP. To facilitate reporting sterilization expenditures on the CMS-64 report, the State agency
programmed its computer system to aggregate amounts paid for services with billing codes that it
considered to be related to sterilizations and inappropriately included hysterectomy billing codes.
The State agency claimed most expenditures on the sterilization line at the enhanced family
planning FMAP. As a result, the State agency inappropriately received additional Federal share
totaling $3,356,074.

The following table breaks down, by calendar year, the hysterectomy expenditures claimed at the
enhanced family planning FMAP, the Federal share the State agency received for those
expenditures, the Federal share calculated at the regular FMAP, and the resulting Federal share
overpayments.


                                                3
           Federal Share Overpayments for Hysterectomy Expenditures Claimed
                   at the Enhanced Family Planning FMAP of 90 Percent

                     Hysterectomy
                     Expenditures               Federal
                     Claimed at the Federal Share at the     Federal
            Calendar   Enhanced       Share     Regular       Share
              Year       FMAP       Received    FMAP      Overpayments
            2005       $1,440,162   $1,296,146 $1,002,715    $293,431
            2006        2,784,889    2,506,400  1,893,436     612,964
            2007        3,776,965    3,399,269  2,562,183     837,085
            2008        4,197,971    3,778,174  2,922,855     855,319
            2009        5,195,001    4,675,500  3,918,226     757,275
             Total    $17,394,988 $15,655,489 $12,299,415 $3,356,074

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government the $3,356,074 in overpayments the State agency
       received for hysterectomy expenditures claimed at the enhanced family planning FMAP,

   •   refund to the Federal Government any overpayments the State agency may have received
       for hysterectomy expenditures claimed at the enhanced family planning FMAP in
       quarters after our audit period, and

   •   discontinue claiming hysterectomy expenditures at the enhanced family planning FMAP.

STATE AGENCY COMMENTS

The State agency agreed with our finding and stated that it had removed all hysterectomy billing
codes from the list of family planning codes in its computer system. The State agency’s
comments appear in their entirety as the Appendix.




                                               4
APPENDIX
                                                                                                                                  Page 1 of 2

                                     APPENDIX: STATE AGENCY COMMENTS

MIKE FOGARTY                                                                                                                       MARY FALLIN
CHIEF EXECUTIVE OFFICER                                                                                                               GOVERNOR




                                                           STATE OF OKLAHOMA
                                                 OKLAHOMA HEALTH CARE AUTHORITY




April 18, 2011



Ms. Patricia Wheeler
Department of Health and Human Services
Office of Inspector General
Office of Audit Services, Region VI
1100 Commerce Street, Room 632
Dallas, TX 75242


Re: Report Number: A-06-10-00047


Dear Ms. Wheeler:

Please find our responses below to the above referenced Audit Report:

Finding: The CMS State Medicaid Manual, section 4270(B)(2), states that the enhanced family planning FMAP
of 90 percent is not available for the cost of a hysterectomy.

Of the $18,156,409 in hysterectomy expenditures the State agency claimed for the period January 1, 2005,
through December 31, 2009, it improperly claimed $17,394,988 at the enhanced family planning FMAP of 90
percent…..As a result, the State agency inappropriately received additional Federal share totaling $3,356,074.

Response: The Oklahoma Health Care Authority (OHCA) concurs with the audit finding and has taken the
following corrective actions.

Section 1905(a) (4) (C) of the Act requires States to provide family planning services to Medicaid beneficiaries.
Section 4270 of the “State Medicaid Manual” states that the purpose of the family planning benefit is “. . . to aid
those who voluntarily choose not to risk an initial pregnancy,” Section 4270 further defines family planning
services to include those services that prevent or delay pregnancy or otherwise control family size. Pursuant to
section 1903(a)(5) of the Act and 42 CFR §§ 432.50 and 433.15, States may claim 90-percent Federal funding for
the costs of family planning services. CMS issued a summary of relevant law and policy, entitled “Title XIX
Financial Management Review Guide (Number 20): Family Planning Services,” to State agencies for their use in
identifying family planning services under Title XIX.

     Following the initial meeting, OHCA reviewed all of the codes that are included in the family planning
MMIS table and updated any discrepancies that were pointed out by the OIG auditors. For the June and
September 2010 quarters, the questioned codes were manually removed from the FP line on the 64 but as
of the December 2010 quarter, the system had been completely updated to remove any questionable codes.
All hysterectomy codes have been removed from both ICD-9 and HCPC. As recommended, we do not claim
FP for procedure codes that fall into the 5800 series:



                    LINCOLN PLAZA  4545 N. LINCOLN BLVD., SUITE 124  OKLAHOMA CITY, OK 73105  (405) 522-7300  WWW.OKHCA.ORG
                                                              An Equal Opportunity Employer
                                                                                                                                  Page 2 of 2



MIKE FOGARTY                                                                                                                       MARY FALLIN
CHIEF EXECUTIVE OFFICER                                                                                                               GOVERNOR




                                                           STATE OF OKLAHOMA
                                                 OKLAHOMA HEALTH CARE AUTHORITY




   58150:58152:58180:58200:58210:58240:58260:58262:58263:58267:58270:58275:5828058285:58290:5
8291:58292:58293:58294:58550:58552:58951:58953:58954:58956:5913559525

     Also, ICD-9 codes in the 68 series were removed for UB 92 claims:

     68.0: 68.1:68.2:68.3:68.4:68.5:68.6:68.7:68.8:68.9: inclusive of all procedures within these groupings.

If you have any questions, or need any additional information, please contact me at (405) 522-7359.


Sincerely,




Carrie Evans
Chief Financial Officer
Oklahoma Health Care Authority




                    LINCOLN PLAZA  4545 N. LINCOLN BLVD., SUITE 124  OKLAHOMA CITY, OK 73105  (405) 522-7300  WWW.OKHCA.ORG
                                                              An Equal Opportunity Employer
